/A

Pierce County

~------MARY E. ROBNETT

Office of Prosecuting Attorney

Prosecuting Attorney
REPLY TO:
CRIMINAL FELONY DIVISION
930 Tacoma Avenue South, Room 946
Tacoma, Washington 98402-2171
Victim-Witness Assistance: (253) 798-7400
(FAX) (253) 798-6636

Main Office: (253) 798-7400

March 18, 2021
Mr. Scott S. Harris
Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:
Washington v. Domingo-Cornelio, No. 20-831 (distributed for March 26, 2021
conference)

Dear Mr. Harris,
On March 15, 2021, Domingo-Cornelio filed a supplemental letter, submitting the
Washington State Supreme Court's recent opinion in In re Pers. Restraint of Monschke,
_P.3d_, 2021 WL 923319 (Wash. Mar. 11, 2021).
The Monschke decision has no bearing on the pending petition. Indeed, it addresses an
entirely separate issue: Whether Miller v. Alabama, 567 U.S. 460 (2012) requires resentencing of
19- and 20-year old offenders who were sentenced to mandatory life without parole for homicide
conv1ct1ons. In re Pers. Restraint of Monschke, _ P.3d _, 2021 WL 923319 (Wash. Mar. 11,
2021). The Washington Supreme Court held that this Court's Eighth Amendment analysis in Miller
requires resentencing of "youthful" adult offenders. Respondents refer to Monschke as a state
constitutional decision. In reality, Monschke rests on this Court's precedents interpreting the Eighth
Amendment and State v. Houston-Sconiers, 391 P.3d 409 (Wash. 2017). Houston-Sconiers
explicitly "decline[d] to address" the state constitution. Id. at 420, n.6.
Monschke further illustrates the Washington Supreme Court's erroneous employment of the
Eighth Amendment, and this Court's precedent, to usurp state legislative authority. Monschke holds
that "youthful" offenders, aged 19 and 20, cannot face mandatory life sentences even though they
are adults under state law. See 2019 WL 923319 at *4. Citing Miller, the Washington court
declared that it "will not necessarily defer to legislative bright-line drawing when determining what
constitutes cruel punishment." Id. at *7. The Washington court held that this holding "flows
straightforwardly" from Miller and state precedent applying Miller. Id. at* 11, * 13.

Printed on recycled paper

~ - - - - - - Mr. Scott S. Harris
March 18, 2021
Page 2 of 2

The Petitioners also write to advise the Court that proposed Washington Senate Bill 5120which Domingo-Cornelio relied on in the Brief in Opposition-died without passage on March 10,
2021. BIO at 17 (referencing S.B. 5120, 67 th Leg., Reg. Sess. (Wash. 2021)). Domingo-Cornelio
argued that the Washington Legislature was "codifying" the holding of Houston-Sconiers, BIO at
17. On the contrary, the Washington Legislature has not ceded its authority to enact structured ·
sentencing requirements for juvenile offenders.

Sincerely,

Mary E. Robnett
Pierce County Prosecuting Attorney
Isl Anne E. Ege/er
Anne E. Egeler
Deputy Prosecuting Attorney
Counsel of Record
Isl Teresa J Chen
Teresa J. Chen
Deputy Prosecuting Attorney
930 Tacoma Avenue, Rm. 946
(253) 732-2083
anne.egeler@piercecountywa.gov

Printed on recycled paper

